Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Diandra Marie Harvey v. United States of America,
S.Ct. No. 21-5514
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 23, 2021,
and placed on the docket on August 30, 2021. The government’s response is due on October 20,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5514
HARVEY, DIANDRA MARIE
USA

JAMES SCOTT SULLIVAN
LAW OFFICE OF J. SCOTT SULLIVAN
22211 1H 10 WEST
STE. 1206
SAN ANTONIO, TX 78257
210-722-2807

